Of.ice of the Attorney General
Governor
Mark Gordon
Attorney General
Bridget Hill

Tort Litigation Division
Kendrick Building
2320 Capitol Avenue
Cheyenne, Wyoming 82002
307-777-5547 Telephone
307-777-8920 Fax

Chief Deputy Attorney General
Ryan Schelhaas
Division Deputy
M1chaclJ. McGrady

December 30, 2019
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: JonMichael Guy v. Robert 0. Lampert, Director, Wyoming Department of Corrections, et
al., Docket No. 19-725
Dear Mr. Harris:
Respondents in the above referenced case consent to the filing of all amicus briefs filed in
this case within the time allowed by this Court's rules.
Sincerely,

Si/4k-

Mi�l J. McGrady
Deputy Attorney General
State of Wyoming
Attorney for Respondents

cc:

Amir H. Ali, Attorney for Petitioner
Steve Aron, Attorney for Petitioner

